     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




April 27, 2010

Report Number: A-07-10-01081

Mr. Charles J. Krogmeier
Director
Iowa Department of Human Services
Hoover State Office Building, Fifth Floor
1305 East Walnut Street
Des Moines, IA 50319-0114

Dear Mr. Krogmeier:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Iowa Medicaid Payments for Home Health Agency
Claims. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3201 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-10-01081 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Charles J. Krogmeier

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF IOWA MEDICAID
 PAYMENTS FOR HOME HEALTH
       AGENCY CLAIMS




                      Daniel R. Levinson
                       Inspector General

                          April 2010
                        A-07-10-01081
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Department of Human Services
(State agency) administers the State’s Medicaid program in accordance with its CMS-approved
State plan.

A home health agency (HHA) provides skilled nursing services, home health aide services, and
medical supplies and equipment to Medicaid recipients. Iowa Administrative Code 441–78.9(1)
requires a physician to authorize these services on a plan of care, in advance and at a minimum
reviewed every 62 days thereafter. Iowa Administrative Code 441–79.3(2) requires that HHAs
maintain medical records supporting all services performed. HHAs submit claims to the State
agency in order to receive compensation for the services they provide to Medicaid recipients.

The State agency then submits to CMS its Medicaid expenditures for the Federal share of its
claimed costs. As part of its monitoring responsibilities to ensure that it pays medical claims
pursuant to Federal and State requirements, the State agency had a process in place whereby it
reviewed medical claims, including some HHA claims, on a postpayment basis in order to detect
and recover improper payments. In January 2009, the State agency strengthened its internal
controls regarding HHA claims, so that going forward it would randomly select and review 165
paid HHA claims each month.

For the period April 1, 2008, through March 31, 2009, the State agency claimed HHA services
totaling $90.2 million ($58.9 million Federal share) for 192 HHA providers. For this review, we
reviewed 190 HHA providers throughout the State of Iowa that claimed a total of $78.4 million
($51.2 million Federal share) for HHA services.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for HHA services in
accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency claimed some costs for HHA services that were not in accordance with Federal
or State requirements. Our review of the 100 claims in our sample showed that 7 claims had
errors (1 claim had two types of errors) totaling $697 ($456 Federal share) of improper Medicaid
reimbursement. The errors included 2 claims with unsupported services, 4 claims with
unauthorized services, and 2 claims for which a billed service was not rendered.



                                               i
Based on the results of our sample, we estimated that the State agency improperly claimed
$302,566 ($199,165 Federal share) for HHA services provided by 190 HHA providers that did
not comply with Federal and State requirements. Although the State agency had a process in
place to monitor some HHA claims on a postpayment basis, and although (as discussed earlier)
the State agency enhanced this process in January 2009, these internal controls and related
measures did not prevent the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $199,165 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take. The State
agency’s comments appear in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program and Home Health Agency Services ......................................1
              Iowa Department of Human Services ..................................................................1
              Iowa Home Health Agency Services ...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          UNALLOWABLE HOME HEALTH AGENCY SERVICES....................................... 4
              Unsupported Services ......................................................................................... 4
              Unauthorized Services ........................................................................................ 4
              Billed Services Not Rendered ............................................................................. 4

          UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT ........................... 5

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS ....................................................................................5

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program and Home Health Agency Services

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905 of the Act authorizes State Medicaid agencies to provide home health agency
(HHA) services to Medicaid recipients. Pursuant to 42 CFR § 440.70, these services include
skilled nursing services, home health aide services, and medical supplies and equipment. In
addition, the HHA services may also include physical therapy, occupational therapy, or speech
pathology and audiology services.

Iowa Department of Human Services

In Iowa, the Department of Human Services (State agency) administers the State’s Medicaid
program. During the period April 1, 2008, through March 31, 2009 (our audit period), the State
agency paid approximately 134,000 Medicaid claims for HHA services.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities to ensure that it pays medical claims pursuant to Federal and
State requirements, the State agency had a process in place whereby it reviewed medical claims,
including some HHA claims, on a postpayment basis in order to detect and recover improper
payments. In January 2009, the State agency strengthened its internal controls regarding HHA
claims, so that going forward it would randomly select and review 165 paid HHA claims each
month.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
summarize, by category of service, Medicaid expenditures for Federal reimbursement. CMS
reimburses the State agency the Federal share of the State agency’s claimed costs, based on the
Federal medical assistance percentage (FMAP). The State of Iowa’s FMAP for the period
April 1, 2008, through September 30, 2008, was 61.73 percent. The American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted February 17, 2009,
authorized the States to receive a higher FMAP. For the period October 1, 2008, through
March 31, 2009, the State of Iowa’s FMAP was increased to 68.82 percent under the provisions
of the Recovery Act.




                                               1
Iowa Home Health Agency Services

Iowa Administrative Code 441–78.9(1) requires a physician to authorize HHA services on a plan
of care, in advance and at a minimum reviewed every 62 days thereafter. Specifically, the HHA
must complete, for each Medicaid recipient, a plan of care that supports the medical necessity
and intensity of services to be provided.

HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients. According to Iowa Administrative Code 441–78.9, payments for
HHA claims are made on an encounter basis, defined as separately identifiable hours in which
the HHA staff provided continuous service to the recipient. (Payment for private duty nursing or
personal care services for persons aged 20 and under is made on the basis of hourly units of
service.) Iowa Administrative Code 441–79.3(2) requires that HHAs maintain complete and
legible medical records supporting all services performed. HHAs submit claims covering a
period of time to the State agency; each claim may contain multiple types of service.

For the period April 1, 2008, through March 31, 2009, the State agency claimed HHA services
totaling $90.2 million ($58.9 million Federal share) for 192 HHA providers. We are reviewing
the amounts claimed for 2 of these 192 HHA providers (Iowa Home Care, LLC ($5,505,664),
and Ultimate Nursing Services of Iowa, Inc. ($6,278,195)) in separate reports (A-07-09-01070
and A-07-09-01078, respectively).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for HHA services in
accordance with Federal and State requirements.

Scope

We reviewed claims for 190 HHA providers throughout the State of Iowa totaling $78,387,375
($51,156,239 Federal share) received from the State agency as reimbursement for the period
April 1, 2008, through March 31, 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our internal control review to those controls related directly
to processing and monitoring HHA claims.

We conducted our fieldwork from November through December 2009 at the State agency in Des
Moines, Iowa, and at the provider locations in our simple random sample.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
       reimbursement for HHA services, as well as the Iowa State plan,

   •   interviewed officials at the State agency to gain an understanding of how they administer
       and monitor the HHA Medicaid program;

   •   reconciled the State agency’s electronic claims data to the CMS-64 reports for the period
       April 1, 2008, through March 31, 2009;

   •   selected a simple random sample of 100 HHA claims from 190 HHA providers in the
       State of Iowa, totaling $50,847 ($32,962 Federal share);

   •   obtained and reviewed the supporting documentation for each sampled claim to
       determine the allowability of the claim; and

   •   provided the results of our review and discussed those results with State agency officials
       on February 18, 2010.

Appendixes A and B contain details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed some costs for HHA services that were not in accordance with Federal
or State requirements. Our review of the 100 claims in our sample showed that 7 claims had
errors (1 claim had two types of errors) totaling $697 ($456 Federal share) of improper Medicaid
reimbursement. The errors included 2 claims with unsupported services, 4 claims with
unauthorized services, and 2 claims for which a billed service was not rendered.

Based on the results of our sample, we estimated that the State agency improperly claimed
$302,566 ($199,165 Federal share) for HHA services provided by 190 HHA providers that did
not comply with Federal and State requirements. Although the State agency had a process in
place to monitor some HHA claims on a postpayment basis, and although (as discussed earlier)
the State agency enhanced this process in January 2009, these internal controls and related
measures did not prevent the overpayments.




                                                3
UNALLOWABLE HOME HEALTH AGENCY SERVICES

Unsupported Services

The CMS State Medicaid Manual, section 2500.2(A), requires that the State agency “[r]eport
only expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and which is immediately available when the claim is filed.” (Emphasis in original.)

Further, Iowa Administrative Code 441–79.3(2) states: “A provider of service shall maintain
complete and legible medical records for each service for which a charge is made….”

For 2 of the 100 sampled claims, the State agency did not claim some costs for HHA services
pursuant to Federal and State requirements. For these 2 claims, home health agencies did not
maintain medical records supporting services billed to the State agency.

For one of these two claims, a provider billed 4 units of home health aide services but was
unable to provide us with any documentation to support the services billed.

Unauthorized Services

Pursuant to 42 CFR § 440.70, HHA services are provided to a recipient at his or her place of
residence under a physician’s orders as a part of a written plan of care.

Iowa Administrative Code 441–78.9 states that payment shall be approved for “medically
necessary home health agency services prescribed by a physician in a plan of home health
care….” Additionally, Iowa Administrative Code 441–78.9(1) states that the plan of care shall
support the medical necessity and intensity of services to be provided by showing, among other
things, the type and frequency of the services to be rendered.

For 4 of the 100 sampled claims, the State agency did not claim some costs pursuant to these
Federal and State requirements. Specifically, the State agency paid for services for which the
frequency of the services provided exceeded the limits prescribed on the recipient’s plan of care.

For one of these four claims, one home health aide visit was billed in excess of the 2 visits
authorized by the plan of care.

Billed Services Not Rendered

Iowa Administrative Code 441–78.9(7) states that payments shall be made for unskilled services
provided by a home health aide.

For 2 of the 100 sampled claims, the State agency improperly claimed costs for home health aide
services. For these claims, a home health aide visit was billed although no service was provided.
In both claims, the visit note stated that the patient declined care.




                                                 4
UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT

Of the 100 HHA claims in our sample, 7 had errors totaling $697 ($456 Federal share) of
improper Medicaid reimbursement. Based on the results of our sample, we estimated that the
State agency improperly claimed $302,566 ($199,165 Federal share) for HHA services provided
by 190 HHA providers that did not comply with Federal and State requirements.

Although the State agency had a process in place to monitor some HHA claims on a postpayment
basis, and although (as discussed earlier) the State agency enhanced this process in January 2009,
these internal controls and related measures did not prevent the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $199,165 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take. The State
agency’s comments appear in their entirety as Appendix C.




                                                5
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of claims representing home health agency (HHA) services paid for the
period April 1, 2008, through March 31, 2009. The population includes only those claims paid
to all providers that were not sampled as part of reviews A-07-09-01070 or A-07-09-01078.

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 127,320 claims totaling
$78,387,375 ($51,156,239 Federal share) for home health services paid for the period
April 1, 2008, through March 31, 2009. The sampling frame includes only those claims paid to
all providers that were not sampled as part of reviews A-07-09-01070 or A-07-09-01078.

SAMPLE UNIT

The sampling unit is one Medicaid paid claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (paid claims).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for home health services. Because
of the significant increase in the Federal medical assistance percentage rate provided under the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, we made separate
estimations for the total unallowable costs and for the Federal share of those unallowable costs.
                   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                     SAMPLE RESULTS

                                                           Number With          Value of
                                 Sample      Value of      Unallowable         Unallowable
Frame Size       Frame Value      Size       Sample         Payments            Payments
 127,320         $78,387,375       100       $50,847            7                 $697

                      ESTIMATES OF UNALLOWABLE PAYMENTS
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                                                 Total Estimated
                            Total Estimated                    Unallowable Services
                          Unallowable Services                   (Federal Share)
Point estimate                $   887,280                         $     581,185
Lower limit                   $   302,566                         $     199,165
Upper limit                   $ 1,471,995                         $     963,205
                                                                                                         Pagelof4



                      APPENDIX C: AUDITEE COMMENTS 





                                                               STATE OF IOWA
CHESTER J. CU LVER , GOVERNOR                                      DEPARTMENT OF HUMAN SERVICES
PATTY JUDGE, LT , GOVERNOR                                                CHARLES J. KROGMEIER. DIRECTOR



    APR 	 5 1010

   Patrick J. Cogley
   Re gional Inspector General for Audit Services
   Office of Inspector General
   Region VII
   60 I East 12'h Street, Room 0429
   Kansas City, MO 64106

   RE: 	   Review of Iowa Medicaid Payments for I-lome Health Agency Claims
           Report Number; A.()7· 10·01081

   Dear Mr. Cogley:

   Enclosed please find conunents from the Iowa Department of Human Services (DHS) on the
   Mareh 10.20 10 draft report concerning Office of Inspector General ' s (OIG) audit of Iowa
   Medicaid payments for Home Health claims.

   DHS appreciates the opportunity to respond to the draft reports and providc addi tional comments
   to be included in the final report. Questions about the attached response can be addressed to:

           Ken Tigges, Executive Officer
           Division of Fiscal Management
           Iowa Depart ment of Human Services
           Hoover State Office Building, 1" Floor South
           DesMoines, IA 50]19·0114
           Email: ktiggeS@dhs.statc.ia.us
           Phone: 515·281·6027

   I undcrstand that this response will be sununarized in the body of the final report and be included
   in its entirety as an appendix.

   Sincerely,



   ~Kmg~"" 

   Director
                         -


   CJK:lc:sn




                        IJ05 E WALNUT STREET· DES MOINES. IA 50J 19· 0114
                                                                                                       Page2of4




                                               ·2·


                      IOWA DEPARTMENT OF HUMAN SERVICES 

                         RESPONSE TO OIG DRAfT REPORT 


                      AUDIT OF IOWA MEDTCAlD PAYMENTS FOR 

                          HOME HEALTH AGENCY CLAIMS 

                           REPORT NUM8ER: A-07-10-010St 



General Comments

Home Health agencies provide a valuable service to Iowa's Medicaid members. Home Health
care is a medically necessary service that supports the elderly and individuals with disabilities to
remain in their homes rather than an institutional level of care. On March 10, 20 I 0, the Office of
Inspector General (OIG) provided the Iowa Department of Human Services (DHS) a draft audit
report, covering the period from April 1,2008 through March 31 , 2009, for Iowa's Medicaid
payments for Home Health claims.

OIG Findings

OIG found three types of claiming errors:
    I. 	 Unsupported Services - medical records were not maintained supporting services billed.
    2. 	 Unauthorized Services - claimed services exceeded the limits prescribed in the member's
         plan of care.
    3. 	 Billed Services Not Rendered - claimed services were not provided to the Medicaid
       member.
OlG reviewed 100 randomly sampled claims for services provided from those submitted by 190
I-IHA providers throughout the State of Iowa. In this review of 100 Statewide l-IHA claims, DIG
found that seven claims had errors. One claim had two types of errors. The errors included two
claims with unsupported services; four claims with unauthorized services; and two claims for
services not rendered. In both of these claims for services not rendered, the case notes stated that
the member declined care.

Response

DHS concurs with the OIG findings. Program improvements have been implemented and
additional improvements are planned. See the following DHS responses to the DIG
recommendations for more detail.

OIG Recommendation

Refund $199,165 to the Federal govenunent for unallowable Medicaid Home Health service
claims.
                                                                                                     Page30f4




                                                -3­

Response

DHS concurs with tht: recommendation and upon issuance of the final report will work with the
Kansas City Regional CMS office to make the necessary adjustment to refund S199, 165 to the
Federal government.

OIG Recommendation

Continue to strengthen internal controls to detect and recover improper payments for Medicaid
Home '·lealth services.

Response to Recommendatio n

DHS concurs with the recommendation.

Program   lmpro~'ements   Already Implemented

   Since January 2009, DHS has strengthened its internal controls regarding Home Health
   claims for the Home Health Services Program [Iowa Medicaid State Plan benefit for adults
   (primarily) and for children with limited HHS Program nceds]. Rcferrcd to as the
   Retrospective Review process, on a monthly basis, DHS randomly selects and reviews 165
   post-payment home health claims for accuracy and compliance with requirements. If errors
   are found, DHS pursues payment recoupment.

Program Improl'ements Planned
   • 	 The Retrospective Review process will be expanded to include a random sample claim
       review and recoupment process for the EPSDT Private Duty Nursing and Personal Cart:
       Program. This program is also an Iowa Medicaid State Plan benefit; however, the
       beneficiaries of this benefit arc children with high medical needs that exceed the benefits
       allowed through tht Home l-kalth Strvices Program.
   • 	 Individualized letters, outlining tht findings and dtmanding reimbursement of the OlG
       calculated improper payment, will be sent to the Home Health agencies that received
       improper payments.
   • 	 An infonnational Itlter will be provided to all enrolled home health agency providers
       summarizing the audit findings and corrective actions.
   • 	 The Iowa Medicaid Entcrprise (IME) Provider Services Unit, as pan of their annual
       provider training, will offer a home health training module at eight sites across the State
       beginning in June 2010. The components of this training mod ule wi!1include:
           :r 	 Information to differen tiate between the separatc home health programs in the
                 State
           >-	   The hie rarchy of program access
           :r 	 Home health service (clinical record) documentation requ irements
                                                                                                  Page4of4




                                              - 4­


       }:> 	   Accurate billing codes and procedures
       }:> 	   Summary or the re trospective review process ror home health services during the
               initial year or implementation including identification or the major reasons for
               recoupment.
       ~ 	 Summary       orthe OIG home health review and audit findings.
• 	 The home health training module will also be available via wcbinar on the IME website
    rollowing the conclusion of the statewide training for future provider referencc.
• 	 '[be IME Surveillance and Utilization Review (SURS) Unit has a regular process to
    review each provider type on an annual basis. For calendar year 20 I0, and ongoing, the
    number of home health agency reviews will increase by 25%.
